Audit Report




OIG-12-003
FINANCIAL MANAGEMENT:
Report on the Bureau of the Public Debt Trust Fund Management
Branch Schedules for Selected Trust Funds as of and for the
Year Ended September 30, 2011
November 5, 2011




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               November 5, 2011


            MEMORANDUM FOR VAN ZECK, COMMISSIONER
                           BUREAU OF THE PUBLIC DEBT

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Report on the Bureau of the Public Debt
                                    Trust Fund Management Branch Schedules for
                                    Selected Trust Funds as of and for the
                                    Year Ended September 30, 2011


            I am pleased to transmit the attached Report on the Bureau of the Public Debt Trust
            Fund Management Branch (TFMB) Schedule of Assets and Liabilities and the related
            Schedule of Activity of Selected Trust Funds as of and for the year ended
            September 30, 2011 (the Schedules). Under a contract monitored by the Office of
            Inspector General, KPMG LLP, an independent certified public accounting firm,
            performed an examination of TFMB’s assertions pertaining to the Schedules as of
            and for the year ended September 30, 2011. These Schedules relate solely to the
            functions performed by TFMB as custodian of the following Trust Funds’ monies and
            investments:

                    •   Federal Supplementary Medical Insurance Trust Fund,
                    •   Federal Hospital Insurance Trust Fund,
                    •   Highway Trust Fund,
                    •   Airport and Airway Trust Fund,
                    •   Hazardous Substance Superfund Trust Fund,
                    •   Leaking Underground Storage Tank Trust Fund,
                    •   Oil Spill Liability Trust Fund,
                    •   Harbor Maintenance Trust Fund,
                    •   Inland Waterways Trust Fund, and
                    •   South Dakota Terrestrial Wildlife Habitat Restoration
                        Trust Fund

            The contract required that the examination be performed in accordance with
            generally accepted government auditing standards and the attestation standards
            established by the American Institute of Certified Public Accountants.
Page 2


In its examination of TFMB’s assertions pertaining to the Schedules, KPMG LLP,
found that TFMB’s assertions (which are included in the Independent Auditors’
Report on Management’s Assertions) are fairly stated, in all material respects, based
on the measurement and disclosure criteria set forth in note 1 to the Schedules.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated from
an examination of assertions in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on TFMB’s assertions. KPMG LLP is responsible for the attached
auditors’ report dated November 4, 2011, and the conclusions expressed in the
report. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment

cc:   Richard L. Gregg
      Fiscal Assistant Secretary
            U. S. DEPARTMENT OF THE TREASURY
BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH

            Schedules and Notes for Selected Trust Funds

           As of and for the Year Ended September 30, 2011
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH


                                              Table of Contents



                                                                      Page

I     Independent Auditors’ Report on Management’s Assertions           1

II    Schedule of Assets and Liabilities of Selected Trust Funds        4

III   Schedule of Activity of Selected Trust Funds                      7

IV    Notes to the Schedules of Selected Trust Funds                   10
I.   INDEPENDENT AUDITORS’ REPORT ON
        MANAGEMENT’S ASSERTIONS
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                     Independent Auditors’ Report on Management’s Assertions


Inspector General, U.S. Department of the Treasury, and
Commissioner, Bureau of the Public Debt:

We have examined the following assertions of the Trust Fund Management Branch (TFMB) of the Bureau
of the Public Debt (BPD) of the U.S. Department of the Treasury (Treasury) with respect to the applicable
accounts of each trust fund included on the accompanying Schedule of Assets and Liabilities of Selected
Trust Funds as of September 30, 2011 and the related Schedule of Activity of Selected Trust Funds for the
year then ended (Schedules):

•   Fund balance with Treasury is reported based on the balance reported by Treasury’s Financial
    Management Service (FMS) in the Government-wide Accounting and Reporting Modernization Project
    (GWA) Account Statement and reconciling transactions identified and recorded by TFMB.

•   Interest receivables are calculated and reported by TFMB based on the investment terms received and
    recorded by TFMB from BPD’s Federal Investments Branch (FIB) in the investment confirmations and
    monthly statements of account.

•   Other receivables are reported based on amounts received and recorded by TFMB from the program
    agencies responsible for the respective trust fund activity.

•   Investments, net are calculated and reported at net cost based on the cost and premium/discount
    amounts reported to TFMB in the investment confirmations and monthly statements of account
    received from FIB.

•   The market value of investments is calculated and reported by TFMB using the recorded investment
    cost and the market rates published in the September 30, 2011 Treasury Quote file and unrealized gains
    and losses are calculated and reported by TFMB as the difference between the market value and the
    investments, net.

•   Program agency equity is calculated and reported by TFMB based on the assets of the trust fund.

•   Available program agency equity is reported based on amounts received and recorded by TFMB from
    the program agencies responsible for the respective trust fund activity.

•   Other program agency equity is calculated and reported by TFMB as the difference between the assets
    of the trust fund and the available program agency equity received and recorded by TFMB from the
    program agencies responsible for the respective trust fund activity.




                                                                     2
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
•   Interest revenue is reported based on the amounts received and recorded by TFMB from FIB in the
    monthly statements of account and accrued interest and amortization calculated by TFMB.
    Amortization of any premiums and discounts on investments is calculated and reported by TFMB
    based on the investment terms reported to TFMB by FIB using the straight-line method for investments
    with a term equal to or less than one year and using the level yield method which approximates the
    interest method for investments with a term of greater than one year.

•   Penalties, fines, administrative fees, transfers in from program agencies, premiums, cost recoveries,
    and other income are reported based on the amounts received and recorded by TFMB from FMS and
    the program agencies responsible for the respective trust fund activity.

•   Tax revenues, tax adjustments, and tax refunds are reported based on the amounts received and
    recorded by TFMB from Treasury's Office of Tax Analysis, Internal Revenue Service, FMS, and/or
    U.S. Customs and Border Protection.

•   Transfers to program agencies are calculated and reported based on the disbursement request amounts
    received and recorded by TFMB from the program agencies responsible for the respective trust fund
    activity and the disbursement amounts returned and recorded by TFMB from the program agencies
    responsible for the respective trust fund activity.

•   Reimbursements to Treasury bureaus and the General Fund are reported based on the disbursement
    request amounts received and recorded by TFMB from various Treasury bureaus, including BPD and
    FMS.

TFMB’s management is responsible for the assertions. Our responsibility is to express an opinion on these
assertions based on our examination. Our examination was conducted in accordance with attestation
standards established by the American Institute of Certified Public Accountants (AICPA) and the standards
applicable to attestation engagements contained in Government Auditing Standards issued by the
Comptroller General of the United States and, accordingly, included examining on a test basis, evidence
supporting the assertions stated above and performing such other procedures as we considered necessary in
the circumstances. We believe that our examination provides a reasonable basis for our opinion.

In our opinion, TFMB’s assertions referred to above relating to the applicable accounts of each trust fund
reported on the accompanying Schedule of Assets and Liabilities of Selected Trust Funds as of
September 30, 2011, and the related Schedule of Activity of Selected Trust Funds for the year then ended,
are fairly stated, in all material respects based on the measurement and disclosure criteria set forth in note 1
to the schedules of selected trust funds.

This report is intended solely for the information and use of the management of BPD, program agencies
responsible for their respective trust fund activity, the U.S. Department of the Treasury Office of Inspector
General, the Office of Management and Budget, the Government Accountability Office, and the U. S.
Congress, and is not intended to be and should not be used by anyone other than these specified parties.




November 4, 2011




                                                         3
II. SCHEDULE OF ASSETS AND LIABILITIES OF
           SELECTED TRUST FUNDS
                                                   U.S. DEPARTMENT OF THE TREASURY
                                       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH

                                                Schedule of Assets and Liabilities of Selected Trust Funds 

                                                                As of September 30, 2011 



                                               Federal
                                            Supplementary              Federal                                                 Hazardous
                                               Medical                 Hospital                                  Airport       Substance
                                              Insurance               Insurance                  Highway       and Airway      Superfund
                                             Trust Fund               Trust Fund                Trust Fund     Trust Fund      Trust Fund
    Assets:
      Fund balance with Treasury        $    1,955,707,653                6,269,696            2,372,543,747     921,692,410          15,000
      Interest receivables                     708,031,507            2,878,526,157                —              44,825,704       4,361,928
      Other receivables                            703,555              538,411,574                —               —               —
      Investments, net                      70,446,253,000          245,939,363,000           16,301,908,649   8,640,889,000   3,572,783,644
            Total assets                    73,110,695,715          249,362,570,427           18,674,452,396   9,607,407,114   3,577,160,572

    Liabilities:
      Program agency equity:
         Available                          29,472,378,594           33,762,244,136           18,674,452,396   4,515,205,699   3,368,753,718
         Other                              43,638,317,121          215,600,326,291                —           5,092,201,415     208,406,854
         Total program agency equity        73,110,695,715          249,362,570,427           18,674,452,396   9,607,407,114   3,577,160,572
           Total liabilities            $   73,110,695,715          249,362,570,427           18,674,452,396   9,607,407,114   3,577,160,572
 




                                                                           5                                                      (Continued)
                                                  U.S. DEPARTMENT OF THE TREASURY
                                      BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH

                                                    Schedule of Assets and Liabilities of Selected Trust Funds 

                                                                    As of September 30, 2011 


                                                                                                                                 South Dakota
                                                    Leaking                                                                       Terrestrial
                                                 Underground             Oil Spill             Harbor               Inland      Wildlife Habitat
                                                 Storage Tank         Liability Trust         Maintenance         Waterways       Restoration
                                                  Trust Fund              Fund                Trust Fund          Trust Fund      Trust Fund
      Assets:
        Fund balance with Treasury          $       1,295,063            31,384,341             104,768,980         3,045,108        —
        Interest receivables                       11,252,175             8,291,355              30,994,809          —                 726,694
        Other receivables                            —                     —                      —                  —               —
        Investments, net                        3,523,799,673         2,254,531,495           6,283,987,297        42,276,290      131,481,992
              Total assets                      3,536,346,911         2,294,207,191           6,419,751,086        45,321,398      132,208,686


      Liabilities:
        Program agency equity:
           Available                              116,520,987           228,536,009               —                13,425,348       22,208,686
           Other                                3,419,825,924         2,065,671,182           6,419,751,086        31,896,050      110,000,000
            Total program agency equity         3,536,346,911         2,294,207,191           6,419,751,086        45,321,398      132,208,686
              Total liabilities             $   3,536,346,911         2,294,207,191           6,419,751,086        45,321,398      132,208,686
 

See accompanying notes to the schedules of selected trust funds.
 




                                                                                6 
III. SCHEDULE OF ACTIVITY OF
      SELECTED TRUST FUNDS
                                                   U.S. DEPARTMENT OF THE TREASURY
                                       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH

                                                     Schedule of Activity of Selected Trust Funds

                                                       For the Year Ended September 30, 2011


                                                 Federal
                                              Supplementary           Federal                                                 Hazardous
                                                 Medical              Hospital                                 Airport        Substance
                                                Insurance            Insurance               Highway         and Airway       Superfund
                                               Trust Fund            Trust Fund             Trust Fund       Trust Fund       Trust Fund
Revenues:
  Interest revenue                        $     3,212,459,883        12,438,690,157            15,984,611      194,223,734      27,266,038
  Penalties, fines, and
     administrative fees                           —                 1,790,644,996             22,753,007         —               1,755,095
  Transfers in from program agencies          225,180,735,425       16,259,118,100             30,533,959         9,905,755   1,156,073,340
  Tax revenues and adjustments                  1,875,727,329      192,062,861,374         36,883,870,180    11,550,157,086         310,125
  Tax refunds                                      —                     —                      —              (18,337,966)       —
  Premiums                                     66,390,975,240        3,494,566,497              —                 —               —
  Cost recoveries                                  —                     —                      —                 —              97,623,117
  Other income                                      1,681,338           22,775,691              —                 —               —
             Total revenues                   296,661,579,215      226,068,656,815         36,953,141,757    11,735,948,609   1,283,027,715
Disposition of revenues:
   Transfers to program agencies              295,353,056,152      259,843,738,314         44,530,730,464    10,088,703,209   1,450,801,581
   Reimbursements to Treasury bureaus
      and the General Fund                           416,730            168,410,389             —                —                —
             Total disposition of
                revenues                      295,353,472,882      260,012,148,703         44,530,730,464    10,088,703,209   1,450,801,581
             Net increase/(decrease)
               in program agency
               equity                     $     1,308,106,333      (33,943,491,888)        (7,577,588,707)    1,647,245,400   (167,773,866)



                                                                          8                                                       (Continued)
                                                    U.S. DEPARTMENT OF THE TREASURY
                                        BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH

                                                          Schedule of Activity of Selected Trust Funds

                                                             For the Year Ended September 30, 2011

                                                                                                                                 South Dakota
                                                       Leaking                                                                    Terrestrial
                                                    Underground            Oil Spill           Harbor            Inland         Wildlife Habitat
                                                    Storage Tank           Liability          Maintenance      Waterways          Restoration
                                                     Trust Fund           Trust Fund          Trust Fund       Trust Fund         Trust Fund
 Revenues:
   Interest revenue                             $        93,156,165          19,209,662          130,099,540           51,931          3,747,193
   Penalties, fines, and
      administrative fees                                —                   27,534,665            —              —                   —
   Transfers in from program agencies                    —                    —                    —              —                   —
   Tax revenues and adjustments                        152,126,757          500,996,970        1,469,108,672     83,950,643           —
   Tax refunds                                           —                    —                    —              —                   —
   Premiums                                              —                    —                    —              —                   —
   Cost recoveries                                       —                  220,673,068            —              —                   —
   Other income                                          —                       43,076            —              —                   —
              Total revenues                           245,282,922          768,457,441        1,599,208,212     84,002,574            3,747,193
 Disposition of revenues:
    Transfers to program agencies                      206,500,000          168,019,526          826,899,352     97,194,907            2,500,000
    Reimbursements to Treasury bureaus
      and the General Fund                                —                     110,000              —             —                  —
              Total disposition of
                 revenues                              206,500,000          168,129,526          826,899,352     97,194,907            2,500,000
              Net increase/(decrease)
                in program agency
                equity                          $        38,782,922         600,327,915          772,308,860    (13,192,333)           1,247,193

See accompanying notes to the schedules of selected trust funds.


                                                                               9
IV. NOTES TO THE SCHEDULES OF
      SELECTED TRUST FUNDS
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                   Notes to the Schedules of Selected Trust Funds
                                                September 30, 2011



(1)   Summary of Significant Accounting Policies
      (a)   Reporting Entity
            The accompanying Schedule of Assets and Liabilities of Selected Trust Funds and related Schedule
            of Activity of Selected Trust Funds (Schedules) pertain to the aspects of certain Treasury-managed
            Trust Funds that are serviced by the Trust Fund Management Branch (TFMB) of the Bureau of the
            Public Debt (BPD) of the U.S. Department of the Treasury (Treasury). The Trust Funds were created
            by legislation enacted by the U.S. Congress.

            TFMB acts as a service organization which processes receipts, disbursements, and transfers related
            to the trust funds based upon information received and recorded by TFMB from Treasury's Office of
            Tax Analysis (OTA) and the Internal Revenue Service (IRS), U.S Customs and Border Protection,
            the program agencies responsible for their trust fund activity, Treasury’s Financial Management
            Service (FMS), and other Treasury bureaus. As part of its functions, BPD also manages the
            investments, maintains related accounting records and supporting documentation, and reports
            financial activity. The financial activity reported in these Schedules is limited to the activities
            performed by TFMB.

            The program agencies are responsible for administering, regulating, and monitoring the program
            activities funded by the trust funds. The program agencies make all decisions regarding dispositions
            from the trust funds. As such, these Schedules do not include information regarding the ultimate
            disposition of amounts transferred from the trust funds to the program agencies.

      (b)   Basis of Presentation
            The Schedules have been prepared to report the assets and liabilities of the trust funds under the
            function performed by TFMB, and the related activity, in accordance with the measurement and
            criteria discussed below.

      (c)   Basis of Accounting
            The Schedules are recorded using the accrual basis of accounting in accordance with U.S generally
            accepted accounting principles.

      (d)   Fund Balance with Treasury
            The Trust Funds do not maintain cash in commercial bank accounts. Treasury processes cash
            receipts and disbursements. Fund Balance with Treasury represents net revenue, disposition of
            revenue, and investment activity. Fund balance with Treasury is reported based on the balance
            reported by Treasury’s FMS in the Government-wide Accounting and Reporting Modernization
            Project (GWA) Account Statement and reconciling transactions identified and recorded by TFMB.

      (e)   Interest Receivables
            Interest receivables are calculated and reported by TFMB based on the investment terms received
            and recorded by TFMB from BPD’s Federal Investments Branch (FIB) in the investment
            confirmations and monthly statements of account.

                                                        11
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                           Notes to the Schedules of Selected Trust Funds
                                         September 30, 2011



(f)   Other Receivables
      Other receivables are reported based on amounts received and recorded by TFMB from the program
      agencies responsible for the respective trust fund activity.

(g)   Investments, Net
      Pursuant to authorizing legislation, the Secretary of the Treasury shall invest, at the direction of the
      program agencies, such portion of the trust fund balances as is not, in the judgment of the program
      agencies, necessary to meet current withdrawals. Such investments shall be in non-marketable par
      value or non-marketable market-based securities as authorized by legislation. Par value securities are
      special issue bonds or certificates of indebtedness that bear interest determined by legislation or the
      Treasury. Market-based securities are Treasury securities that are not traded on any securities
      exchange, but mirror the prices of marketable securities with similar terms. Both par value and
      market-based securities are issued and redeemed by FIB.

      TFMB follows Treasury fiscal investment policy guidelines. TFMB determines the term of the
      securities purchased based on direction provided by the program agencies. The securities are
      acquired and held in the name of the Secretary of the Treasury for the trust funds. The interest on and
      proceeds from the sale or redemption of any security held for the trust funds are credited to the
      appropriate trust fund. Investments are selected for liquidation based on the following order: earliest
      maturity date, lowest prevailing interest rate, and first security in first security out.

      Investments, net are calculated and reported at net cost based on the cost and premium/discount
      amounts reported to TFMB in the investment confirmations and monthly statements of account
      received from FIB. The market value of investments is calculated and reported by TFMB using the
      recorded investment cost and the market rates published in the September 30, 2011 Treasury Quote
      file (the last work day of the fiscal year) and unrealized gains and losses are calculated and reported
      by TFMB as the difference between the market value and the investments, net. The investments are
      exposed to various risks such as interest rate and market risks. Such risks, and the resulting
      investment market values, may be influenced by changes in economic conditions and market
      perceptions and expectations. Accordingly, it is at least reasonably possible that material changes to
      the market values of the investments will occur in the near term.

(h)   Available and Other Program Agency Equity
      Program agency equity is calculated and reported by TFMB based on the assets of the trust fund.
      Program agency equity consists of available and other program agency equity.

      Available program agency equity represents the amount of program agency equity that may be
      transferred as of September 30, 2011 to the program agencies at the request of the program agencies.
      Available program agency equity is reported based on amounts received and recorded by TFMB
      from the program agencies responsible for the respective trust fund activity.

      The remaining balance of program agency equity is reported as other program agency equity. Other
      program agency equity is calculated and reported by TFMB as the difference between the assets of


                                                  12
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                           Notes to the Schedules of Selected Trust Funds
                                          September 30, 2011



      the trust fund and the available program agency equity received and recorded by TFMB from the
      program agencies responsible for the respective trust fund activity.

(i)   Interest Revenue
      Interest revenue is reported based on the amounts received and recorded by TFMB from FIB in the
      monthly statements of account and accrued interest and amortization calculated by TFMB.
      Amortization of any premiums and discounts on investments is calculated and reported by TFMB
      based on the investment terms reported to TFMB by FIB using the straight-line method for
      investments with a term equal to or less than one year and using the level yield method which
      approximates the interest method for investments with a term of greater than one year.

(j)   Revenues
      Pursuant to authorizing legislation, revenue activity recorded in the trust funds consists primarily of
      interest, penalties, fines, administrative fees, transfers in from program agencies, tax revenues, tax
      adjustments, tax refunds, premiums, cost recoveries, and other income, which are transferred from
      the General Fund of the Treasury or from program agencies to the Trust Funds.

      Penalties, fines, administrative fees, transfers in from program agencies, premiums, cost recoveries,
      and other income are reported based on the amounts received and recorded by TFMB from FMS and
      the program agencies responsible for the respective trust fund activity.

      Tax revenues, tax adjustments, and tax refunds are reported based on the amounts received and
      recorded by TFMB from the OTA, IRS, FMS, and/or U.S. Customs and Border Protection. OTA
      estimates the tax revenues each month based on projected tax receipts and provides the estimates to
      FMS. FMS transfers the amount of estimated taxes to the trust fund accounts. The IRS or program
      agencies generally certify the tax revenues within two quarters after the taxes are estimated (i.e., 1st
      quarter estimate is certified in the 3rd quarter) and provide this certification to FMS. FMS calculates
      the tax adjustment as the difference between the taxes estimated by OTA and taxes certified by the
      IRS/program agencies and adjusts the trust fund accounts accordingly. FMS reports the tax
      adjustments to TFMB. As a result of the timing of the certifications, the Schedule of Activity
      includes certified tax revenues (i.e. actual tax revenues) for the first three quarters of the fiscal year
      and estimated tax revenues for the last quarter of the fiscal year.

(k)   Transfers to Program Agencies
      Dispositions from the Trust Funds are made in accordance with the authorizing legislation to the
      program agencies, which are responsible for the ultimate disposition of such funds, to cover program
      administration and related costs as defined by law. Transfers to program agencies are calculated and
      reported based on the disbursement request amounts received and recorded by TFMB from the
      program agencies responsible for the respective trust fund activity and the disbursement amounts
      returned and recorded by TFMB from the program agencies responsible for the respective trust fund
      activity.




                                                   13
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                Notes to the Schedules of Selected Trust Funds
                                              September 30, 2011



      (l)   Reimbursements to Treasury Bureaus and the General Fund
            In the case of certain trust funds, BPD and FMS are authorized by law to receive direct
            reimbursement from the trust funds for certain administrative expenses. Also, the Secretary of the
            Treasury is directed by law to charge trust funds to reimburse the General Fund for administrative
            expenses incurred by other Treasury bureaus in performing activities related to administering the
            trust funds. These reimbursement amounts are determined by Treasury based on its assessment of the
            estimated cost of the services provided. Reimbursements to Treasury bureaus and the General Fund
            are reported based on the disbursement request amounts received and recorded by TFMB from
            various Treasury bureaus, including BPD and FMS.

(2)   Investments, Net
      Federal Supplementary Medical Insurance Trust Fund
      Investments at September 30, 2011, are non-marketable, par value intra governmental securities with a cost
      of $70,446,253,000.


      Federal Hospital Insurance Trust Fund
      Investments at September 30, 2011, are non-marketable, par value intra governmental securities with a cost
      of $245,939,363,000.


      Highway Trust Fund
      The investments at September 30, 2011, are non-marketable, market-based intra governmental securities as
      follows:

                                                                Net
                                                           unamortized
                                                            premium              Net                Market
                                           Cost             (discount)       investments            value
      One-day certificates        $ 16,301,908,649             —            16,301,908,649      16,301,908,649

                Total             $ 16,301,908,649             —            16,301,908,649      16,301,908,649


      Airport and Airway Trust Fund
      Investments at September 30, 2011, are non-marketable, par value intra governmental securities with a cost
      of $8,640,889,000.



                                                      14
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                       September 30, 2011



Hazardous Substance Superfund Trust Fund
Investments at September 30, 2011, are non-marketable, market-based intra governmental securities as
follows:

                                                          Net
                                                     unamortized
                                                      premium                  Net           Market
                                       Cost           (discount)           investments       value
One-day certificates           $     497,033,942          —              497,033,942        497,033,942
Notes                              3,012,349,659       63,400,043      3,075,749,702      3,113,661,632
             Total             $ 3,509,383,601         63,400,043      3,572,783,644      3,610,695,574


The net unrealized gain on investments is $37,911,930 at September 30, 2011.


Leaking Underground Storage Tank Trust Fund
The investments at September 30, 2011, are non-marketable, market-based intra governmental securities as
follows:

                                                          Net
                                                     unamortized
                                                      premium                  Net           Market
                                       Cost           (discount)           investments       value
One-day certificates           $     229,418,682          —              229,418,682        229,418,682
Notes                              3,220,678,424       73,702,567      3,294,380,991      3,397,896,659
               Total           $ 3,450,097,106         73,702,567      3,523,799,673      3,627,315,341


The net unrealized gain on investments is $103,515,668 at September 30, 2011.

.




                                               15
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                         September 30, 2011



Oil Spill Liability Trust Fund
The investments at September 30, 2011, are non-marketable, market-based intra governmental securities as
follows:

                                                           Net
                                                      unamortized
                                                       premium                 Net           Market
                                         Cost          (discount)          investments       value
One-day certificates             $     630,518,454         —             630,518,454        630,518,454
Bills and notes                      1,594,031,630      29,981,411     1,624,013,041      1,664,484,536
              Total              $ 2,224,550,084        29,981,411     2,254,531,495      2,295,002,990


The net unrealized gain on investments is $40,471,495 at September 30, 2011.



Harbor Maintenance Trust Fund

The investments at September 30, 2011, are non-marketable, market-based intra governmental securities as
follows:

                                                           Net
                                                      unamortized
                                                       premium                 Net           Market
                                         Cost          (discount)          investments       value
One-day certificates             $     533,030,197         —             533,030,197        533,030,197
Bills and notes                      5,669,719,410      81,237,690     5,750,957,100      5,987,840,066
              Total              $ 6,202,749,607        81,237,690     6,283,987,297      6,520,870,263


The net unrealized gain on investments is $236,882,966 at September 30, 2011.




                                                 16
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                 Notes to the Schedules of Selected Trust Funds
                                                  September 30, 2011



      Inland Waterways Trust Fund

      The investments at September 30, 2011, are non-marketable, market-based intra governmental securities as
      follows:

                                                                        Net
                                                                   unamortized
                                                                    premium              Net         Market
                                                        Cost        (discount)       investments     value
      One-day certificates                      $ 42,276,290             —            42,276,290    42,276,290

                      Total                     $ 42,276,290             —            42,276,290    42,276,290


      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund

      The investments at September 30, 2011, are non-marketable, market-based intra governmental securities as
      follows:

                                                                       Net
                                                                  unamortized
                                                                   premium             Net          Market
                                                      Cost         (discount)      investments      value
      One-day certificates                  $      22,778,091            —          22,778,091      22,778,091
      Notes                                       108,948,391          (244,490)   108,703,901     118,889,478
                   Total                    $ 131,726,482              (244,490)   131,481,992     141,667,569


      The net unrealized gain on investments is $10,185,577 at September 30, 2011.


(3)   Change in Program Agency Equity
      Federal Supplementary Medical Insurance Trust Fund
      Change in program agency equity for the year ended September 30, 2011, is:

                                                                                Amount
                           Balance, beginning of year                   $ 71,802,589,382
                           Increase in balance                             1,308,106,333
                           Balance, end of year                         $ 73,110,695,715



                                                         17
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                          September 30, 2011



Federal Hospital Insurance Trust Fund
Change in the program agency equity for the year ended September 30, 2011, is:

                                                                         Amount
                   Balance, beginning of year                  $ 283,306,062,315
                   Decrease in balance                           (33,943,491,888)
                   Balance, end of year                        $   249,362,570,427


Highway Trust Fund
Change in program agency equity for the year ended September 30, 2011, is:

                                                                          Amount
                   Balance, beginning of year                  $    26,252,041,103
                   Decrease in balance                             (7,577,588,707)
                   Balance, end of year                        $   18,674,452,396


The program agency equity available as of September 30, 2011 is $18,674,452,396. However, Congress
has authorized appropriations in excess of current available trust fund assets that amounts to
$32,226,238,842 after considering amounts already transferred to the program agency.

Airport and Airway Trust Fund

Change in program agency equity for the year ended September 30, 2011, is:

                                                                        Amount
                   Balance, beginning of year                  $   7,960,161,714
                   Increase in balance                             1,647,245,400
                   Balance, end of year                        $   9,607,407,114


Hazardous Substance Superfund Trust Fund
Change in program agency equity for the year ended September 30, 2011, is:

                                                                        Amount
                   Balance, beginning of year                  $   3,744,934,438
                   Decrease in balance                             (167,773,866)
                   Balance, end of year                        $   3,577,160,572



                                                 18
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                          September 30, 2011



Leaking Underground Storage Tank Trust Fund
Change in program agency equity for the year ended September 30, 2011, is:

                                                                        Amount
                   Balance, beginning of year                  $   3,497,563,989
                   Increase in balance                                38,782,922
                   Balance, end of year                        $   3,536,346,911


Oil Spill Liability Trust Fund
Change in program agency equity for the year ended September 30, 2011, is:

                                                                        Amount
                   Balance, beginning of year                  $   1,693,879,276
                   Increase in balance                               600,327,915
                   Balance, end of year                        $   2,294,207,191


Harbor Maintenance Trust Fund
Change in program agency equity for the year ended September 30, 2011, is:

                                                                        Amount
                   Balance, beginning of year                  $   5,647,442,226
                   Increase in balance                               772,308,860
                   Balance, end of year                        $   6,419,751,086


Inland Waterways Trust Fund
Change in program agency equity for the year ended September 30, 2011, is:

                                                                        Amount
                   Balance, beginning of year                  $      58,513,731
                   Decrease in balance                              (13,192,333)
                   Balance, end of year                        $     45,321,398




                                                 19
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                Notes to the Schedules of Selected Trust Funds
                                                September 30, 2011



      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
      Change in program agency equity for the year ended September 30, 2011, is:

                                                                              Amount
                         Balance, beginning of year                  $     130,961,493
                         Increase in balance                                 1,247,193
                         Balance, end of year                        $     132,208,686




(4)   Related Parties
      TFMB, on behalf of the Secretary of the Treasury, compiles amounts deposited into the trust funds, invests
      receipts in Treasury securities, redeems securities and transfers funds to the program agencies, maintains
      accounting records for receipts and disbursements of the trust funds, and reports trust fund financial
      activity to the program agencies and other interested parties. The program agencies, OTA, IRS, and/or
      FMS determine the amounts to be deposited in the trust funds. The program agencies determine the
      disposition of the trust fund balances.




                                                       20
